<html>
<title> - ANNUAL THREAT ASSESSMENT HEARING</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                    ANNUAL THREAT ASSESSMENT HEARING

=======================================================================

                                HEARING

                               before the

                            PERMANENT SELECT
                               COMMITTEE
                            ON INTELLIGENCE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

           HEARING HELD IN WASHINGTON, DC, FEBRUARY 25, 2009




                  U.S. GOVERNMENT PRINTING OFFICE
53-478                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1d7a6d725d7e686e697578716d337e727033">[email&#160;protected]</a>  


               PERMANENT SELECT COMMITTEE ON INTELLIGENCE

                     SILVESTRE REYES, TX, Chairman
ALCEE L. HASTINGS, Florida           PETER HOEKSTRA, Michigan
ANNA G. ESHOO, California            ELTON GALLEGLY, California
RUSH D. HOLT, New Jersey             MAC THORNBERRY, Texas
C. A. DUTCH RUPPERSBERGER, Maryland  MIKE ROGERS, Michigan
JOHN F. TIERNEY, Massachusetts       SUE WILKINS MYRICK, North Carolina
MIKE THOMPSON, California            ROY BLUNT, Missouri
JANICE D. SCHAKOWSKY, Illinois       JEFF MILLER, Florida
JAMES R. LANGEVIN, Rhode Island      K. MICHAEL CONAWAY, Texas
PATRICK J. MURPHY, Pennsylvania      PETER T. KING, New York
ADAM B. SCHIFF, California
ADAM SMITH, Washington
DAN BOREN, Oklahoma


                    ANNUAL THREAT ASSESSMENT HEARING

                              ----------                              


                      WEDNESDAY, FEBRUARY 25, 2009

             U.S. House of Representatives,
                Permanent Select Committee on Intelligence,
                                                    Washington, DC.
    The committee met, pursuant to call, at 9:02 a.m., in room 
334, Cannon House Office Building, the Honorable Silvestre 
Reyes (chairman of the committee) presiding.
    Present: Representatives Reyes, Hastings, Eshoo, Holt, 
Ruppersberger, Tierney, Thompson, Schakowsky, Langevin, Murphy, 
Schiff, Smith, Boren, Hoekstra, Gallegly, Thornberry, Rogers, 
Miller, Kline and Conaway.
    The Chairman. Good morning. The committee will please come 
to order.
    Today we convene the first public hearing of the House 
Permanent Select Committee on Intelligence for the 111th 
Congress. Before I welcome our new members, I want to remind 
everybody we are having this hearing today in what I call the 
home of Chairman Sonny Montgomery, someone that championed 
issues for America's veterans, someone that is highly regarded 
and revered not just in Congress but by veterans everywhere. So 
we are very appreciative to Chairman Filner for allowing us to 
borrow this great, historic hearing room here.
    With that, I would like to extend a warm welcome to the new 
members of this committee: Mr. Smith, Mr. Boren, Mrs. Myrick, 
Mr. Miller, Mr. Kline, and Mr. Conaway. And I would also like 
to welcome back to our returning members from previous service 
with the committee. My Vice Chair, Mr. Hastings, welcome back; 
and Mr. Blunt as well.
    Director Blair, welcome. This morning, we are pleased that 
you are here and happy to see you today. We also want to 
congratulate you on your recent confirmation and wish you well 
as you go forward under these difficult times that we are 
facing today as a Nation.
    As the Nation's third Director of National Intelligence, 
you will be required to continue to refine the role of the DNI 
and advance the goals of the Intelligence Reform and Terrorism 
Prevention Act of 2004, while at the same time never losing 
sight of the threats to our national security. I think we often 
make reference that this will be much like flying a plane and 
building it at the same time. So we are definitely prepared to 
stand with you and support your efforts.
    Before we get started, I also wanted to thank the Director 
for meeting with members of the committee yesterday in an 
informal session. Feedback that I have gotten has been very 
positive, and we intend to do more of those meetings, being 
mindful and respectful of the challenge that you face and the 
time limitations that you have. But we deeply appreciate your 
willingness to do that.
    There were a few things about our discussion yesterday that 
I personally found very encouraging.
    First, I am pleased, Mr. Director, that you are looking 
carefully at the situation in Mexico and are in the process of 
determining whether we need to redouble our efforts in helping 
President Calderon and the Mexican government deal with threats 
posed by the drug cartels.
    Second, I am encouraged that the administration is 
conducting a comprehensive review of our policy in Pakistan and 
Afghanistan.
    Third, I was interested to hear your thoughts on dealing 
with the detainees at Guantanamo Bay. When discussion turned to 
what our options might be with respect to closing of Guantanamo 
Bay, I think it is important to remind everyone that the United 
States has been capable of detaining and holding terrorists on 
our soil for many, many years.
    By way of examples, today, the U.S. prison system holds 
Ramzi Yousef, who is Khalid Sheik Mohammad's nephew and one of 
the planners of the first World Trade Center attack. He was 
captured in Pakistan, extradited to the United States, 
convicted, and he now sits in a U.S. jail.
    The U.S. prison system also holds Omar Abdel Rahman, better 
known as the Blind Sheik, a participant also in the first World 
Trade Center attacks; as well as Zacarias Moussaoui, convicted 
of participating in the September 11 attacks, also in a U.S. 
prison. Ali Saleh Kahlah al-Marri, who has been labeled an 
enemy combatant by the Bush administration, has been securely 
held in a Navy brig.
    Those are just some of the examples of terrorists that are 
being held in the United States.
    Today, I am going to make a few general remarks and then 
address some specific areas of concern for our Nation.
    This is the third Annual Threat Assessment that I have 
presided over as chairman of this committee, and we are in a 
unique position this year. Although the new administration is 
just over a month old, we have seen some major changes to some 
of the most controversial issues which impact the Intelligence 
Community.
    President Obama's Executive orders on detention and 
interrogation policies and on Guantanamo Bay represent a 
significant departure from the previous administration's 
policies. I know that many of us have strong opinions on what 
should be done in these critical areas. My intention, though, 
is to give the President and his new appointees some space to 
work through these issues as they propose a way forward. 
However, I think we all recognize that we don't have an 
unlimited amount of time. So I hope that the executive branch 
will move quickly on these critical issues.
    Director Blair, I am also hopeful that you and the new 
administration will bring about an improved interaction between 
the executive and legislative branches on intelligence matters. 
Too often in the past we have been left in the dark, or simply 
told things too late, or told only part of the story. You heard 
some of those comments yesterday in the informal session. I am 
truly optimistic that you will bring positive change in this 
area as we see our way forward.
    One thing that will not change in the new administration is 
the strong character and drive of the men and women of the 
Intelligence Community. I have traveled throughout the world, 
as we mentioned to you yesterday, and have met with our 
intelligence personnel and have consistently come away 
impressed by the level of their dedication, their skill, their 
commitment, and their bravery. I know, in talking with you, you 
intend to spend some time traveling and meeting these same men 
and women around the world that are doing such critical work 
for our Nation. I hope that as you meet with them you will 
deliver to them our message of gratitude, support, and 
encouragement.
    In the coming months, we will also be asking you questions 
about funding and resource needs for the Intelligence 
Community. One of the principal functions of our committee is 
to ensure that the men and women working on the front lines 
have the tools that they need to combat terrorism and to 
protect our national security. We look to you for a frank 
assessment of what those needs may be.
    With respect to the substance of the threats facing the 
United States, I will outline four very basic principles on 
which I hope we will all agree and will seek your comment on 
them. First, al-Qaeda remains a significant threat. Second, 
American security policy will, for years, continue to be driven 
by Iraq and Afghanistan. Third, while we will continue to focus 
on the hot spots around the globe, we simply cannot forget 
about growing threats from China, Russia, Iran, and about long-
standing problems in Latin America and in Africa. Fourth, our 
Nation's cyber infrastructure remains vulnerable to attack. Our 
Intelligence Community must be deeply engaged as we respond to 
these threats.
    On the subject of al-Qaeda, I think it is beyond dispute 
that the last few years have seen expansion of the influence of 
al-Qaeda and the Taliban in the Federally Administered Tribal 
areas of Pakistan, a region known as FATA. This simply, in my 
opinion, cannot continue. With the freedom to recruit, train, 
and plot new attacks from the FATA, new safe havens across the 
globe continue to grow and emerge. Of particular concern are 
the expanding al-Qaeda networks in the Sahel region of North 
Africa and the emerging and intensifying al-Qaeda presence in 
Yemen.
    The fight against al Qaeda is not simply a matter of 
warfare. We have also got to make progress in countering the 
extremist ideology. This committee needs to know what has been 
done to counter the extremist message throughout the world. 
What threat do we face from radicalization in the homeland? 
What advances have our allies made in combating this threat? 
And, simply stated, what can we do better to address these 
threats worldwide?
    With respect to the wars in Iraq and Afghanistan, our 
national interests will be tied to the outcome of these 
conflicts. Our children and grandchildren will pay the cost of 
these wars and will either reap the benefits or suffer the 
consequences of what we do here. The past 2 years have seen 
some success in Iraq, thanks to the heroic efforts of our 
military intelligence and diplomatic personnel. We are very 
grateful for all of their efforts.
    At the same time, while significant progress has been made 
in Iraq, we are losing ground on the Taliban and insurgents in 
Afghanistan, who are now virtually indistinguishable from al-
Qaeda. These terrorists, who have long found sanctuary in the 
border area between Afghanistan and Pakistan, not only directly 
threaten U.S. national security; they threaten our allies by 
insisting on spreading their violent and distorted 
interpretation of Islam.
    So as we balance forces from Iraq to Afghanistan, how will 
we protect the gains in Iraq while stopping the slide in 
Afghanistan?
    As I noted at the outset, while we maintain focused on al-
Qaeda and on the wars in Iraq and Afghanistan, we have also got 
the rest of the world to worry about. We must continue to focus 
on the threats posed by state actors such as Iran and North 
Korea. As we have recently read in the open press, Iran placed 
its first domestically built satellite in orbit. But the same 
technology that can launch a satellite and put it in orbit is 
also useful for launching missiles.
    Coupled with the possibility of Iran's nuclear ambitions, 
what is the Intelligence Community's assessment of this threat? 
What is the Community's assessment of Iran's openness to 
increased diplomacy and engagement with the United States? 
Similarly, what progress has been made in the efforts to disarm 
North Korea? And what more needs to be done in both these 
important and vital areas of the world?
    Russia continues to pose challenges to our country. It has 
engaged in an aggressive foreign policy designed to provide an 
alternative to the United States and has positioned itself as a 
counter to U.S.-led international efforts. Through its military 
offensive in Georgia last summer, as well as its continuing 
intelligence efforts around the globe, Russia shows that it 
remains a threat to U.S. interests and our allies. Do we have, 
Director Blair, our intelligence resources adequately deployed 
to deal with this resurgence from Russia?
    In the last Congress, I expressed my desire for the 
Intelligence Community to focus on areas that had long been 
neglected in favor of other high-priority issues. Latin America 
and Africa come to mind. We previously believed the threats 
from these regions to be much less urgent, but they continue to 
have the potential to seriously threaten core U.S. national and 
security interests and will continue to grow in scope and 
severity. The security of the United States is directly 
affected by events in these important places.
    Like many people on the southwest border of the United 
States, I am specifically concerned about the increase in 
violence and drug trafficking coming from Mexico. How has 
President Calderon managed this issue, and how will it affect 
the security of the United States?
    Colombia's long-term efforts to bring terrorism and 
narcotrafficking under control have had great success; yet 
Colombia continues to be the primary source of cocaine entering 
the United States. How can we help the Colombian government 
move forward?
    Africa-based terrorist groups, such as al-Shabaab and al-
Qa'ida have grown in influence and capability. How will we 
address these threats, especially when our resources are 
stretched so thin elsewhere?
    Finally, a word about cyber security. It is only in the 
past couple of years that we have really begun to appreciate 
the threat to our cyber infrastructure. This is a problem of 
enormous proportions, and I want you to know that we intend to 
work with you to address this vital and important national 
security asset from an intelligence perspective.
    There are a host of other concerns that I could address, 
such as the ongoing conflict in Israel, the threat of WMD 
proliferation, and the security impact of the global economic 
crisis. I will leave those subjects for the question period and 
conclude by reiterating my thanks to the brave men and women of 
our Nation's Intelligence Community. I want them to know that, 
as chairman of this committee, I am reminded on a daily basis 
of their sacrifices as I look for our work here to be worthy of 
their commitment and their efforts. I trust and hope that you 
will consider us your partners in this effort.
    So I look forward to a productive hearing this morning and 
a productive Congress.
    Now I would like to recognize our ranking member, Mr. 
Hoekstra, for any opening statement that he may wish to make.
    Mr. Hoekstra. Thank you, Mr. Chairman.
    Welcome, Director. It is good to have you here.
    This is always a very interesting hearing. It is really one 
of the few opportunities where the American people have the 
opportunity to see and to hear from you a description of the 
wide range of threats that we face as a Nation and how we are 
organized to contain and defeat those threats.
    We recognize that much of the information that we 
potentially could talk about is of a sensitive nature and that 
we will get into that in closed session. I would like to really 
just address three specific areas that I would be interested in 
hearing you talk about how you will deal with these.
    One is what I perceive a lack of accountability in the 
Intelligence Community. I have been disappointed, sometimes 
appalled, by the attitude of certain people within the 
Intelligence Community who mistakenly believe that they are not 
accountable to anyone outside of the Intelligence Community. 
The shocking disdain for outside oversight was most recently 
displayed in one of the documents produced inside the 
Intelligence Community, the report that was produced by the 
Inspector General in the CIA on the Peru counternarcotics 
program.
    According to this report, the CIA helped a foreign 
government shoot down an aircraft believed to be operated by 
drug smugglers. The report also found that the CIA did not 
follow proper procedures to protect innocent lives. The CIA's 
carelessness led to the death of Veronica Bowers and her infant 
daughter Charity, two American citizens who were my 
constituents. In fact, Veronica Bowers' parents are also the 
constituents of one of our new committee members, Mr. Miller 
from Florida.
    The Inspector General also found that certain CIA employees 
misled and withheld information from the Justice Department, 
Congress, and the White House regarding the repeated lack of 
proper procedures in this program.
    In short, CIA officers disregarded the rules. Their 
carelessness resulted in the death of innocent Americans; and 
they then tried to cover up their carelessness, including, 
perhaps, lying to Congress.
    Congress hasn't been very well in following up on this, and 
I don't believe the Community has been either. We learned about 
the CIA Inspector General's report in November. It's February. 
It's almost March now. This committee has not had one hearing 
or one briefing on the IG report about the Bowers shoot-down, 
what happened after it. No investigations have been launched, 
no witnesses interviewed, no reports filed. Nothing.
    Perhaps if those suspect flights in Peru involved banned 
steroids bound for professional baseball players, this Congress 
would have paid more attention. With all the attention 
generated by the steroids in baseball hearings, we finally see 
Major League players being investigated and perhaps going to 
jail for lying to Congress. What more will it take for the same 
thing to happen to CIA employees who may have lied to Congress?
    Director, I think it is important that we get to the bottom 
of this issue. I think many of us on this committee believe 
that over the years it has been too difficult to get 
information from the Intelligence Community on specific areas 
where they are involved and that we call it the Twenty 
Questions, where, unless we ask the specific right question, we 
are not going to get the information that we need to do our 
job.
    In this case specifically, the information appears to be 
very compelling. Again, it comes out of the CIA Inspector 
General's report that the information about what happened in 
this situation was available, was in the Community, was known 
to many people within the CIA and within the Community, but yet 
was never shared with Congress, and not only this particular 
shoot-down but the pattern of what happened to this program and 
how it was run.
    And I hope that you aggressively go after this particular 
circumstance, because it is still hanging out there. The 
trouble is it is 5, 6, 7 years later, and there is no 
accountability. You need to work on restoring the trust between 
the Community, this committee, Congress, and the American 
people; and by dealing with this case, I think we can make 
significant progress in that direction.
    Secondly, with the administration's decision to close 
Guantanamo Bay, I would like to hear when the administration is 
going to lay out a plan for addressing the threat from radical 
jihadists in a comprehensive way. Tactical decisions are being 
made regarding the threat from radical jihadism, but I have yet 
to hear the administration outline its long-term strategy for 
containing and ultimately defeating the threat.
    How are you going to ensure that efforts to combat radical 
jihadists are properly resourced in light of planned budget 
cuts? What direction do you see the administration leading 
America's fight against radical jihadism, and what would you 
recommend?
    Finally, your own office, the Director. What will the 
Office of Director of National Intelligence look like? I am 
concerned by what I perceive and I think many others on this 
committee perceive as a dramatic shift from the Congress's 
vision of the size, composition, and function of the Office of 
Director of National Intelligence.
    When we passed the Intelligence Reform and Terrorist 
Prevention Act of 2004, we created a new position to help 
manage the Community and break down barriers between agencies. 
We deliberately broke apart the functions of the old Director 
of Central Intelligence and gave the CIA its own director. The 
DNI was to be a coordinator of the Intelligence Community, a 
community organizer of sorts. The DNI staff was intended to be 
small and efficient. It was supposed to stay away from 
operational management.
    In 4 years, Mr. Director, we now have an ODNI that we 
hardly recognize. The ODNI, under your predecessors, became 
entangled in management, grew enormous in size, and has amassed 
too many scarce intelligence resources for itself.
    Instead of a lean coordinating body, we got fat. Layer upon 
layer of bureaucracy in this Community. We wanted this bill to 
transform the Community, to coordinate the Community. And I 
appreciated some of the words that you shared with us 
yesterday, that you said, when I look at the Community, it's 
working together more effectively than what it was the last 
time you saw it. And I give the legislation credit and the 
leadership of the Community for making that happen and 
integrating the various aspects of the Community.
    The other thing that we saw, though, that we wanted to have 
happen was that the ODNI would force key strategic decisions to 
be made; and in a number of areas we have seen that the ODNI 
has not forced the strategic decisions to be made. It, instead, 
has meshed itself in the tactical day-to-day operations of the 
Community. And how we experience that is things that we used to 
get from the Community relatively quickly by asking an agency, 
hey, we need this information, and getting it a few days later. 
We now find that we make the request to the Community. A few 
days later, we ask, where is it? And they say, oh, we had to 
send it over to the DNI's office. Because before anything comes 
back to Capitol Hill, they have got to sign off on it. And 
instead of it being faster, more efficient, it is another layer 
of bureaucracy and controls, which has slowed the process.
    So I hope that under your direction you can create the 
foundation and the long-term direction for the ODNI that says 
this is the strategic arm of the Community that integrates the 
Community and makes sure that the tough and broad decisions get 
made.
    But we are not going to try to manage the Community on a 
day-to-day basis, because that will just slow the Community 
down. We need a flexible and agile Community that can respond 
quickly to the threats that are out there. The ODNI was 
intended to transform the Community and create that type of a 
Community, not to be another layer of bureaucracy.
    So those are the three points that I would hope that we 
would hear from that we hope you would address a little bit 
today.
    With that, Mr. Chairman, I yield back the balance of my 
time.
    The Chairman. Thank you, Mr. Hoekstra.
    I want to remind our members and witnesses that we are in 
open session this morning. If there is doubt about the 
classification of a particular subject or statement, reserve 
those issues for the closed session that will follow after this 
open hearing this morning.
    Without objection, the written statement from our witness 
will be made part of the official record of this hearing.
    This morning, Director Blair, you have heard from the 
ranking member and myself framing some of the issues. You come 
to this position very highly regarded, highly respected, with a 
tremendous management background. I, for one, want to give you 
the time and the flexibility to address these critical areas, 
as I said in my statement.
    You have a sense of the frustration from the members from 
our meeting yesterday and also from the ranking member's 
statement this morning. But we are here to support you. We are 
here to make sure that, as you go through this process and 
taking over from the previous administration, that you are 
measured and balanced and give us a clear accounting and your 
best judgment; and we are ready to work with you.
    With that, you are recognized, Mr. Director, for your 
opening statement.

STATEMENT OF DENNIS C. BLAIR, DIRECTOR OF NATIONAL INTELLIGENCE

    Admiral Blair. Mr. Chairman, Ranking Member Hoekstra, it 
seems that there are two sets of questions that you are 
concerned with this morning.
    My main preparation for the hearing was to give a sense of 
the threats, the opportunities, the strategic landscapes that 
the United States faces. There are also a series of questions 
about the capabilities and management of the Community. I would 
propose that I first give the summary remarks that I prepared 
on the overall strategic landscape and then perhaps after that 
get into some of the specific issues which will also be with us 
for a long time, and perhaps we will have other times to pursue 
if we don't cover them. Is that satisfactory?
    The Chairman. That is satisfactory. You can proceed.
    Admiral Blair. Gentlemen, ladies, my assessment is based on 
the work of thousands of patriotic, hardworking, both 
collectors and assessors, and the many other people in the 16 
Intelligence services. The remarks that I submitted, the report 
that I submitted, the remarks that I am making involved a lot 
of work of all of them; and it is a report not just of threats 
but also of opportunities for this country and a tour of the 
strategic landscape, which is dynamic and which is complex.
    Let me begin with the global economic crisis, because I 
believe it already looms as the most serious one in decades. 
Since September, 2008, 10 nations have committed to new IMF 
programs. Three European governments have fallen because of 
economic issues. Central and Eastern Europe are under 
tremendous strain, both in terms of their currency and in terms 
of their internal economies. And, unlike the 1997-1998 Asian 
financial crisis, countries will not be able to export their 
way out of the crisis in one region of the world because it is 
so widespread. And the stakes are high.
    Mexico, which the chairman mentioned, with its close trade 
links to the United States, is vulnerable to a prolonged 
American recession. Europe and the former Soviet Union bloc 
have experienced anti-state demonstrations. Much of Eurasia, 
Latin America, and sub-Saharan Africa lack sufficient cash 
reserves and access to international aid.
    Our analysis indicates that economic crises increase the 
risk of regime-threatening instability if they continue for a 
1- or 2-year period. Instability can loosen the fragile hold 
that many developing countries have on law and order.
    There are some silver linings. With low oil prices, 
Venezuela will face financial constraints this year. Iran's 
President faces less than certain prospects for re-election in 
June because of his handling of his economy.
    However, the reverse of that is that a serious energy 
supply crunch may happen in the longer term if sustained low 
prices leads to cuts or major delays in new investments in 
energy sources in the short term. The crisis presents 
challenges for the United States, since we are generally held 
responsible for it.
    The November G-20 summit elevated the influence of emerging 
market nations, more than just the G-8, who previously were the 
main meetings. But the U.S. also has opportunities to 
demonstrate increased leadership. Our openness, developed 
skills, workforce mobility put us in a better position to 
reinvent ourselves than other countries.
    Moreover, Washington will have the opportunity to fashion 
new global structures that benefit all in this crisis. The 
President certainly talked at length last night about the steps 
he is taking in the domestic economy, and there is much to do 
in the international economy as well.
    Moving now to terrorism. We have seen progress in Muslim 
opinion turning against terrorist groups. Over the last 18 
months, al-Qa'ida has faced public criticism from prominent 
religious leaders and even from some fellow extremists. In 
2008, these terrorists did not achieve their goal of conducting 
another major attack on the United States, and no major country 
is at immediate risk of attack from extremist terrorist groups.
    Replacing the loss of key leaders since 2008 in Pakistan's 
Federally Administered Tribal Areas has proved difficult for 
al-Qa'ida. Al-Qa'ida in Iraq has been squeezed. Saudi Arabia's 
aggressive counterterrorism efforts have rendered the kingdom a 
harsh operating environment for al-Qa'ida.
    But, despite these setbacks, al-Qa'ida does remain 
dangerous. Yemen is reemerging as a jihadist battleground. The 
capabilities of terrorism groups in East Africa will increase 
next year, and we are concerned about the potential for 
homegrown American extremists inspired by al-Qaeda's militant 
ideology to plan attacks inside the United States.
    There are many challenges in that region that stretches 
from the Middle East to South Asia, despite the progress I 
mentioned in countering violent extremism. The United States 
has strong tools, from military force to diplomacy, and good 
relationships with the vast majority of states in the region; 
and we will need all of these tools to help forge a durable 
structure of peace and renewed prosperity in the region.
    The revival of Iran as a regional power, the deepening of 
ethnic sectarian economic divisions across much of the region, 
the looming leadership successions among U.S. allies are all 
shaping the strategic landscape in that region.
    Hezbollah and Hamas, with support from Iran, championed 
armed resistance to Israel, a development that complicates 
efforts to resolve the Israeli-Palestinian dispute and 
undercuts the legitimacy of modern Arab states to support a 
negotiated settlement.
    Battle lines are increasingly drawn not just between Israel 
and Arab countries but also between secular Arab nationalists 
and ascendant Islamic nationalist movements inside moderate 
states.
    The Iranian regime views the United States as its enemy and 
as a threat. A more assertive regional Iranian foreign policy, 
coupled with dogged development of two of the major components 
of a nuclear weapons capability, alarms most of the governments 
from Riyadh to Tel Aviv. The Levant is the key focal point for 
these strategic shifts. Recent fighting between Israel and 
Hamas in the Gaza Strip has deepened Palestinian political 
divisions. It has also widened the rift between regional 
moderates led by Egypt, Saudi Arabia, and Jordan and 
hardliners, including Iran, Hezbollah, and Syria.
    With Hamas controlling Gaza and Hezbollah growing stronger 
in Lebanon, progress on a Palestinian-Israeli accord is more 
difficult. With Iran pursuing uranium enrichment and Israel 
determined not to allow it to develop a nuclear weapons 
capability, there is potential for an Iran-Israeli 
confrontation or crisis.
    Moderate Arab states fear a nuclear armed Iran, but without 
progress on a Palestinian settlement, they are harder put to 
defend their ties to the United States.
    Turning to Iraq. Coalition and Iraqi operations and 
dwindling popular tolerance for violence have helped to 
sideline the extremists there. Fewer Iraqis are dying at the 
hands of their countrymen than at any time in the past 2 years.
    Nevertheless, disputed internal boundaries, perceptions of 
government repression, or potential increased foreign support 
to insurgent or militia groups could reverse political and 
security progress. Baghdad will also be coping with declining 
oil revenues.
    In Afghanistan, the Taliban-dominated insurgency forces 
have demonstrated greater aggressiveness recently. Improved 
governance and extended development were hampered in 2008 by 
lack of security. Afghan leaders must tackle endemic corruption 
and the extensive drug trade.
    Progress has been made in expanding and fielding the Afghan 
National Army, but many factors hamper efforts to make the 
units capable of independent action. The upcoming 2009 
presidential election will present a greater security challenge 
than did that in 2004, and insurgents probably will make a 
concerted effort to disrupt it.
    No improvement in Afghanistan is possible without Pakistan 
taking control of its border areas and improving governance and 
creating economic and educational opportunities throughout the 
country.
    In 2008, Islamabad intensified counterinsurgency efforts, 
but its record in dealing with militants has been mixed as it 
balances conflicting internal counterterrorist priorities. The 
government is losing authority in the north and the west, and 
even in the more developed parts of the country mounting 
economic hardships and frustration over poor governance have 
given rise to greater radicalization.
    The time when only a few states had access to the most 
dangerous technologies is, unfortunately, long over. Often dual 
use, they circulate easily in our globalized economy, as does 
the scientific expertise to put them together in weapons.
    It is difficult for the United States and its partners to 
track them. Components and production technologies are widely 
available. Traditional deterrents and diplomacy may not prevent 
terrorist groups from using mass affect weapons.
    One of the most important security challenges facing the 
United States is fashioning a more effective nonproliferation 
strategy with our partners.
    The assessments in our 2007 National Intelligence Estimate 
about Iran's nuclear weapons program are generally valid. 
Tehran, at a minimum, is keeping open the option to develop 
deliverable nuclear weapons. The halt since 2003 in nuclear 
weapons design and weaponization was primarily in response to 
increasing international scrutiny and pressure. So it leads us 
to believe that some combination of threats, threats of 
intensified internal scrutiny and pressures, along with 
opportunities for Iran to achieve its security goals, might 
prompt Tehran to extend the halt to some other nuclear weapons-
related activities.
    Turning to Asia, rapidly becoming the long-term focus of 
power in the world, Japan remains the second largest global 
economy and a strong ally. But the global downturn is exacting 
a heavy toll on Japan's economy. To realize its aspirations to 
play a stronger regional and global role will require political 
leadership and difficult decisions there.
    The rising giants, China and India, are playing increasing 
regional roles economically, politically, and militarily. China 
tries to secure access to markets, commodities, and energy 
supplies that it needs to sustain domestic economic growth. 
Chinese diplomacy seeks to maintain favorable relations with 
other powers, and especially the United States. The global 
economic slowdown threatens China's domestic stability, and 
Chinese leaders are taking economic and security steps to deal 
with it.
    Taiwan as an area of tension in U.S.-China relations has 
substantially relaxed. Taiwan President Ma, inaugurated in May, 
has resumed dialog with Beijing; and leaders on both sides of 
the straits are cautiously optimistic about less 
confrontational relations.
    Preparations for a possible Taiwan conflict nonetheless 
drive the modernization goals of the People's Liberation Army, 
but, at the same time, China's security interests are 
broadening. Full civilian and military space capability, 
formidable capabilities in cyberspace are rapidly developing. 
China will attempt to develop at least a limited naval power 
projection capability, and we have already seen it deployed for 
peaceful purposes in anti-piracy off the coast of Somalia.
    Like China, India's expanding economy will lead New Delhi 
to pursue new trade partners, gain access to vital energy 
markets, and generate other resources to sustain economic 
growth. India's growth rate will slow this coming year, but 
ample foreign reserves and a sound banking system will help 
ensure relative stability there.
    Determined efforts by India and Pakistani leaders to 
improve relations could unravel unless Islamabad for its part 
takes meaningful steps to cut support to anti-Indian militant 
groups and New Delhi for its part in turn makes credible 
efforts to allay Pakistan security concerns.
    The increase in violent attacks within India is a cause of 
great concern to its government, as is instability in 
neighboring countries in south Asia, in addition to Pakistan.
    On the global stage, Indian leaders will continue to follow 
an independent course. That we and India are both democracies 
does not guarantee a congruence of interests. Nonetheless, good 
relations with United States will be essential for India to 
realize its global ambitions.
    Although the Middle East and Asia have the highest call on 
our attention, our concerns are broader. Russia is actively 
cultivating relations with regional powers, including China, 
Iran, Venezuela. Moscow is also trying to maintain control over 
energy networks that go to western Europe and to east Asia.
    Now, Russian leaders have recently spoken positively about 
the possibilities for change in the U.S.-Russian dynamic, but 
NATO enlargement, the conflict over Georgia's separatist 
regions, missile defense, all pose difficulties in the 
relationship.
    In Latin America, populist, often autocratic, regimes pose 
challenges to the region's longer term success. Basic law and 
order issues, including rising violent crime, powerful drug 
trafficking organizations, confront key hemispheric nations, as 
do uneven governance and institution-building efforts in 
confronting chronic corruption.
    The corruptive influence and increasing violence of Mexican 
drug cartels impede Mexico City's ability to govern parts of 
its territory. Unless the United States is able to deliver 
market access on a permanent and meaningful basis, its 
traditionally privileged position could erode with a 
concomitant decline in political influence.
    Africa has made substantial economic and political progress 
over the past decade; and the level of open warfare has 
declined significantly, especially in Liberia, Sierra Leone, 
and the Ivory Coast. The drop in commodity prices and global 
recessions will, however, test the durability of the region's 
recent positive growth trend. Even before the current crisis, 
the 6 percent GDP rate which Africa was achieving, although 
impressive, could not bring about the necessary structural 
changes to reduce poverty there.
    A number of intractable conflicts persist in the Democratic 
Republic of the Congo, Nigeria, Sudan, and Somalia. In Darfur, 
U.N. peace talks remain stymied; and larger peacekeeping forces 
are slow to deploy.
    Let me finish with the long-term challenges of 
environmental security and the threats to our information 
technology infrastructure.
    Adding more than a billion people to the world population 
by 2025 will put pressure on clean energy sources and on water 
supplies. Most of the world's population will move from rural 
to urban areas, seeking economic opportunity; and many, 
particularly in Asia, will achieve advanced lifestyles with 
greater per capita consumption and generation of pollution.
    According to the U.N.'s Intergovernmental Panel on Climate 
Change, physical affects of climate change will worsen in 
coming years. Multilateral policymaking on climate change is 
likely to be substantial and a growing priority within 
traditional security affairs.
    The world sees the United States in a pivotal leadership 
role. As effects of climate change mount, the U.S. will come 
under increasing pressure to help the international community 
set goals for mission reductions and to help others through 
technological progress.
    Finally, threats to our information technology 
infrastructure are an important Intelligence Community focus. 
Our information infrastructure is becoming both indispensable 
to the functioning of our society and vulnerable to 
catastrophic disruption in the way that previous analog 
decentralized systems were not. Cyber systems are being 
targeted for exploitation and potentially for destruction or 
disruption by a growing array of both nonstate and state 
adversaries.
    Network defense technologies are widely available to 
mitigate threats but have not been uniformly adopted. A number 
of nations, including Russia and China, can disrupt elements of 
the U.S. information structure. We must take protective 
measures to detect and prevent intrusions before they do 
significant damage. We must recognize that cyber defense is not 
a one-time fix. It requires a continual investment of hardware, 
software, and cyber defenses.
    In conclusion, the international security environment the 
United States faces is complex. The global financial crisis has 
exacerbated what was already a growing set of political and 
economic uncertainties. We, nevertheless, are in a strong 
position to shape a world reflecting universal aspirations and 
the values that motivated Americans since 1776: human rights, 
the rule of law, liberal market economics, social justice. 
Whether we can succeed will depend on actions we take here at 
home, restoring strong economic growth, maintaining our 
scientific and technological edge, and defending ourselves at 
reasonable costs while preserving our civil liberties.
    It will also depend on our actions abroad, not only how we 
deal with regions, regimes, and crises but also in developing 
new multilateral systems, formal or informal, for effective 
international cooperation in areas such as trade and finance, 
in neutralizing extremist groups using terrorism, in 
controlling the proliferation of weapons of mass destruction, 
developing codes of conduct for cyberspace and space, and in 
mitigating and slowing global climate change.
    Mr. Chairman, that concludes my remarks. I would be happy 
to turn to questions.
    The Chairman. Thank you, Mr. Director.
    [The statement of Admiral Blair follows:]

    [GRAPHIC] [TIFF OMITTED] T3478A.001
    
    [GRAPHIC] [TIFF OMITTED] T3478A.002
    
    [GRAPHIC] [TIFF OMITTED] T3478A.003
    
    [GRAPHIC] [TIFF OMITTED] T3478A.004
    
    [GRAPHIC] [TIFF OMITTED] T3478A.005
    
    [GRAPHIC] [TIFF OMITTED] T3478A.006
    
    [GRAPHIC] [TIFF OMITTED] T3478A.007
    
    [GRAPHIC] [TIFF OMITTED] T3478A.008
    
    [GRAPHIC] [TIFF OMITTED] T3478A.009
    
    [GRAPHIC] [TIFF OMITTED] T3478A.010
    
    [GRAPHIC] [TIFF OMITTED] T3478A.011
    
    [GRAPHIC] [TIFF OMITTED] T3478A.012
    
    [GRAPHIC] [TIFF OMITTED] T3478A.013
    
    [GRAPHIC] [TIFF OMITTED] T3478A.014
    
    [GRAPHIC] [TIFF OMITTED] T3478A.015
    
    [GRAPHIC] [TIFF OMITTED] T3478A.016
    
    [GRAPHIC] [TIFF OMITTED] T3478A.017
    
    [GRAPHIC] [TIFF OMITTED] T3478A.018
    
    [GRAPHIC] [TIFF OMITTED] T3478A.019
    
    [GRAPHIC] [TIFF OMITTED] T3478A.020
    
    [GRAPHIC] [TIFF OMITTED] T3478A.021
    
    [GRAPHIC] [TIFF OMITTED] T3478A.022
    
    [GRAPHIC] [TIFF OMITTED] T3478A.023
    
    [GRAPHIC] [TIFF OMITTED] T3478A.024
    
    [GRAPHIC] [TIFF OMITTED] T3478A.025
    
    [GRAPHIC] [TIFF OMITTED] T3478A.026
    
    [GRAPHIC] [TIFF OMITTED] T3478A.027
    
    [GRAPHIC] [TIFF OMITTED] T3478A.028
    
    [GRAPHIC] [TIFF OMITTED] T3478A.029
    
    [GRAPHIC] [TIFF OMITTED] T3478A.030
    
    [GRAPHIC] [TIFF OMITTED] T3478A.031
    
    [GRAPHIC] [TIFF OMITTED] T3478A.032
    
    [GRAPHIC] [TIFF OMITTED] T3478A.033
    
    [GRAPHIC] [TIFF OMITTED] T3478A.034
    
    [GRAPHIC] [TIFF OMITTED] T3478A.035
    
    [GRAPHIC] [TIFF OMITTED] T3478A.036
    
    [GRAPHIC] [TIFF OMITTED] T3478A.037
    
    [GRAPHIC] [TIFF OMITTED] T3478A.038
    
    [GRAPHIC] [TIFF OMITTED] T3478A.039
    
    [GRAPHIC] [TIFF OMITTED] T3478A.040
    
    [GRAPHIC] [TIFF OMITTED] T3478A.041
    
    [GRAPHIC] [TIFF OMITTED] T3478A.042
    
    [GRAPHIC] [TIFF OMITTED] T3478A.043
    
    [GRAPHIC] [TIFF OMITTED] T3478A.044
    
    [GRAPHIC] [TIFF OMITTED] T3478A.045
    
    [GRAPHIC] [TIFF OMITTED] T3478A.046
    
    The Chairman. I will save my questions for later and yield 
my time to the Vice Chair of the committee.
    Mr. Hastings. Thank you very much, Mr. Chairman.
    Mr. Chairman, let me congratulate you on holding this 
hearing.
    Mr. Director, Admiral, as others have welcomed you, so do 
I. I will not take a lot of time. I would like to make a 
statement and then to give you something to get back to me on 
that I consider of critical importance to your mission.
    There is a lot of discussion regarding Guantanamo, and 
there will continue to be a lot of discussion regarding 
Guantanamo. Admiral, when I was president of the Parliamentary 
Assembly of the Organization for Security and Cooperation in 
Europe--and I am fond of saying, if you can say that, you ought 
to be the president of the organization. But there are 56 
countries that are represented by parliamentarians in that 
organization. After Abu Ghraib, what I found was a continuing 
harangue, specifically directed at Guantanamo more than 
anything; and then, with the considerable information that 
appeared in the public realm regarding renditions, Guantanamo 
continued to loom large.
    A delegation from France and Belgium came to me as 
president and said that they wanted to go to Guantanamo. It 
took me a year, but I appointed a task force within the 
organization, led by the then President of the Belgian Senate, 
a woman named Anne-Marie Lizin.
    I contacted the Defense Department and Secretary Rice, and 
they assisted in allowing Ms. Lizin and her entourage visit 
Guantanamo. They did so on two occasions. Came back, reported 
to Secretary Rice, and then to the organization. And it 
ameliorated some of the concern that members in the 
organization had, the mere fact that they had an opportunity to 
see it.
    Now, we have persons at Guantanamo that are going to raise 
genuine concern among the American citizenry as to where they 
are placed. That said, I am of a mind that we need to rethink 
Guantanamo and allow, among other things, as I said to you on 
yesterday, that it be made manifestly clear why certain 
individuals are required to be held somewhere, no matter 
whether it is Guantanamo or a prison in the United States or in 
places where our allies or others may take them. But as long as 
our allies know these things and as long as the nongovernmental 
organizations know these things, if Amnesty International and 
the Red Cross are permitted to see the actual circumstances, 
then I believe that Guantanamo, different than most, can stay 
open with a greater understanding in the world as to why the 
individuals are being held there.
    At least it is a different thought concerning how we go 
forward and contain individuals that simply cannot be released 
to the general public and cannot be released in many places, in 
many instances, in countries where they are likely to cause 
harm to U.S. interests and allies.
    That said, you and I--I returned to this committee after a 
considerable amount of service, having taken myself off for a 
year, returning now for what will be a final 2 years. So you 
and I are 3\1/2\ weeks on the job, and it is a steep learning 
curve. And I don't expect that you have had an opportunity to 
do everything that I believe, knowing your background, that you 
are going to be able to do and accomplish in this job.
    However, I do wish that in your examination that you pay 
specific attention to something that many members on this 
committee and many members past on this committee have 
continuously brought to the attention of the Intelligence 
Community, and that is diversity. Diversity as it pertains to 
the number of women in the Intelligence Community, diversity as 
it pertains to the number of blacks, Latinos, Asians, Native 
Americans, and every category.
    We are again dealing with the subject of languages 
specifically and the great need that we have to examine the 
clearance mechanism and methodology that we employ so that we 
can find the necessary persons to match up with the 
circumstances of the day. That also includes cyberspace.
    I hired a young man, 23 years old, at an entry level 
salary, that could run circles around many persons that are in 
the Intelligence Community dealing with cyber technology. We 
need to be able to pay these kids and bring them in and give 
them long-term retention, because there is going to be a 
problem.
    I hope I have said something--I don't need an immediate 
response, but this is something you will continue to hear from 
me. If I continue to see nothing but white people come in here 
and nothing but men come in here, then you are going to see a 
continuing harangue from me, you and everybody in the 
Intelligence Community.
    Thank you.
    The Chairman. Thank you, Mr. Hastings.
    Mr. Hoekstra.
    Mr. Hoekstra. Thank you, Mr. Chairman.
    Mr. Director, I didn't hear you address some of the 
questions that I had brought up about--you talked about the 
worldwide threats that are out there, but you didn't talk about 
how the Community was going to be arranged to confront these 
threats to get the information to provide this committee and 
Congress and the administration with the information that they 
might need, the structure, your vision for the ODNI and how you 
are going to repair and rebuild the trust between the Community 
and Congress. Can you address those couple of points?
    Admiral Blair. Yes, sir. Let me turn to some of these 
organizational issues and management issues.
    First, on diversity raised by Congressman Hastings. In my 
first week on the job, I met with Pat Taylor, who is our 
director of diversity. She showed me the figures in terms of 
minority and gender representation in the Intelligence 
Community. They are not bad, but they are not as good as they 
ought to be when you compare them to the Federal workforce, the 
workforce at large, and the population at large.
    I also share the point that you and Chairman Reyes have 
made that diversity as far as the Intelligence Community is not 
simply a matter of something nice to have, it is something 
essential to have because of the diversity of environments in 
which we have to operate and which people that look like me are 
very conspicuous, and people who only speak Russian and 
English, like I do, are not that useful. So we are very much on 
that.
    And we have good programs, including connections with 
learning institutions that can provide the sorts of skills that 
we need; and we include it in our management evaluations of our 
managers in the Community, from the executive level right down. 
So I look forward to continuing to talk to you on that, to all 
of you on that, because it is something that is important to 
me, and I think it is the right thing to do.
    On the question of accountability, Congressman Hoekstra, 
every time a new administration comes into a job, it inherits a 
number of cases from the past. In my case, just to cite a 
couple, there is the Algerian chief of station who is being 
prosecuted by the Justice Department right now for actions that 
he took. You mentioned the Peruvian investigation. There are 
several others that are going on. There are the questions about 
the interrogations that were done by the CIA in the previous 
regime. And I think we have to deal with those in a prompt and 
fair manner, and I pledge to you that we will.
    Ninety-nine percent of the people in the Intelligence 
Community want to do the right thing for the right reason. But 
in an organization of the tens of thousands that we have, I am 
not naive enough to believe that somebody out there isn't 
screwing up. I think what is more important is how you handle 
the example you set and, therefore, the culture that you build 
into the Community over time.
    And I will tell you that my background has to do with 
accountability. I intend to exercise it. I intend to exercise 
it through the leaders of the organization in the Community. I 
don't drive down into an organization and pull a case up to my 
level if it is being handled correctly where it should be, 
which is by the directors of these 16 agencies. But I pledge to 
you that we will have a culture of accountability in the 
organization; and I know I have heard many individual concerns, 
all of which I will look into.
    On the size of the DNI staff, I am getting a feeling for it 
right now. I am getting a feeling for the magnitude of the 
challenges. I will tell you that coordination can happen with 
ex cathedra pronouncements and with simply giving out orders, 
but integration is often harder and takes staff in order to 
understand what the carrots and sticks are at the working level 
where it counts and how you build the right structures to get 
integration across the Community.
    Things like common security systems, common personnel 
standards, don't just happen by me signing an Intelligence 
Community directive. They have to be checked on. They have to 
be followed up. So there is a staff requirement for all of 
these integrative functions which are in the IRTPA Act of 2004; 
and I am getting a feeling now for whether we have the right 
amount of staff to do that, whether we can do it through just 
getting reports from the organizations themselves rather than 
checking on them.
    I do feel strongly that we should not from the DNI level be 
involved in operations, and I think we are not. The only 
operations that I think we should be involved in are directing 
collection, for example, when we have to make decisions among 
competing priorities across INTs and across targets. Somebody's 
got to make a call that you put the satellites on this, you put 
the human intelligence on this. And that is my job, and I need 
some staff to do that.
    Admiral Blair. And I need some staff to do that. So it is a 
complicated situation. But as we have talked previously, I 
don't think that many layers of bureaucracy in fat 
organizations are successful. I think they should be as lean as 
they need to be to do the job. And I look forward to talking 
with you about that. On Guantanamo Bay, we had a lively 
discussion yesterday. And I certainly gained more perspectives 
on it than I had when I walked in the door. But I do need to 
emphasize that the Intelligence Community is playing a role in 
this issue of Guantanamo. It is not running the show. The show 
is run by the three executive orders that the President signed 
a couple of weeks ago that assigns most of the responsibility 
to the Department of Justice, with major chunks of it to the 
Department of Defense, and major chunks of it to me.
    I also would point out in the executive order that enabling 
legislation will be taken in consultation with the Congress. So 
there will be plenty of opportunity for both ends of 
Pennsylvania Avenue to decide these tough questions. And they 
are tough questions. The more I read about it, the more I 
realize how few easy answers there are, and we are going to 
have to make some calls. They are calls of the entire executive 
branch. And of course, they need support from this body as 
well.
    Mr. Hoekstra. Thank you, Mr. Director. Thank you, Mr. 
Chairman.
    The Chairman. Thank you, Mr. Hoekstra. Mr. Tierney. Mr. 
Tierney is not here. Then Mr. Thompson.
    Mr. Thompson. Thank you, Mr. Chairman. Director, thank you 
very much for being here. I had a couple of comments and a 
couple of questions. I want to reiterate the chairman's 
comments regarding gang activities south of our border, and 
would like to hear from you a commitment that you will work in 
a coordinated effort with all of the pertinent Intelligence 
Community, relevant Intelligence Community folks. We have got a 
tremendous problem not only with gangs, as the chairman brought 
up, but also with illicit drug trafficking and the fact that we 
have cartels now growing marijuana in this country using the 
money to purchase guns, ammunition, bringing it back across the 
border to continue with their cartel wars that also have a 
spillover effect into this country. And my sense is that we can 
do a lot more in regard to a coordinated effort to get ahead of 
this, and would like to make sure that we move in that 
direction. You had mentioned in your statement, or maybe it was 
the ranking member said that we wanted to create a lean and 
coordinated body when we developed your office.
    And there has been a number of people, you heard about it 
yesterday in our briefing, and you heard it again today. Many 
of us feel that we have really strayed from that assignment. 
And I want to add on to that list. We have created duplications 
that hamper our ability do some of the things that we need to 
do. And I would like to hear from you a very honest assessment 
of how we break down some of that duplication, some of those 
barriers, and how we could maybe redesign or recoordinate our 
efforts to put those bodies in the field and make sure that we 
are able to meet our intelligence mission and not get bound up 
in bureaucracies that duplicate efforts and stop us from being 
able to do our oversight work.
    And I just want to remind you our oversight function is 
something that we work in partnership with the Intelligence 
Community. We are not here in an adversarial role. The work 
that we do helps you do a better job and make sure that our 
country is safe and our interests are in fact safe.
    And then lastly, I just want to touch on the GAO report. 
And I don't know that everything that is brought up and the 
answers that we need can be discussed in this open hearing, but 
I want to lay them out. If you can, in fact, respond, I would 
appreciate it. If not, you have between now and when we move 
into the closed session to at least think about it. But the GAO 
report was pretty critical on our policies in Pakistan. And it 
stated, and I will quote the U.S. Government has not met its 
national security goals to destroy terrorist threats and close 
the safe haven in the FATA, and has not developed a 
comprehensive plan reflecting the integration of multiple U.S. 
Government agency efforts. And I would like to know what it is 
that we are not doing, why it is we haven't been able to 
develop this comprehensive plan, what you see as the stumbling 
points in us getting there, and would be interested in knowing 
what you need in order for us to get there. And then lastly on 
the--again on the GAO report and the recent news out of 
Pakistan, open source reporting on the Taliban in the Swat 
Valley and the recent ceasefire that has been established.
    And my read on that is it is going to give the Taliban some 
breathing room, and would like to know what your assessment is 
on that, and if, in fact, it will allow the Taliban to come 
back and be even stronger. And if so, what does that mean for 
our future in Afghanistan, especially with reports that we are 
moving more U.S. troops in there now, and how that plays with 
regard to this ceasefire. We seem to be acquiescing to a group 
that clearly is not in our best interests, does not have our 
best interests in mind.
    The Chairman. Mr. Director, if you will take a couple of 
his points and then answer the rest for the record so that we 
have enough time for members to--thank you.
    Admiral Blair. I will just go quickly. An integrated 
Pakistan strategy is what we are working on right now in the 
administration. We are part of it in the Intelligence 
Community. I agree with you we need to eliminate duplication. 
And as I said to Ranking Member Hoekstra, we will be in 
dialogue with the committee about that. And I couldn't agree 
with you more that helping Mexico work against the drug gangs 
is high on our list of priorities. And we will be putting 
additional emphasis on it.
    The Chairman. Thank you. Mr. Thornberry.
    Mr. Thornberry. Thank you, Chairman. Director, in your 
statement you say that sustained pressure against al-Qa'ida in 
the FATA has the potential to further degrade its 
organizational cohesion and diminish the threat it poses. So 
what happens if there is not sustained pressure, if it is 
relaxed in some way?
    Admiral Blair. They get stronger.
    Mr. Thornberry. And does the threat that it poses to us 
grow?
    Admiral Blair. Yes.
    Mr. Thornberry. You say a few pages later in the statement 
that al-Qa'ida leaders use this tribal area as a base from 
which to avoid capture, produce propaganda, provide training, 
and the rest of the things. So is there any doubt in your mind 
that this tribal area of Pakistan is the focus of al-Qa'ida 
leadership, it is where they are, and where they run their 
operation from?
    Admiral Blair. Right now that is where their headquarters 
is, Mr. Thornberry. And they have operated from other places in 
the past, in Africa. There are al-Qa'ida affiliates in the 
Maghreb in northern Africa, in Yemen, in Iraq. And so the most 
convenient and hospitable place for them right now is the place 
that you describe. But we are concerned about their ability to 
move around. It is kind of like toothpaste in a tube.
    Mr. Thornberry. But based on your previous answer, my 
impression is that you believe it is important to keep that 
pressure on in this area, understanding that if we put enough 
pressure they may squirt out someplace else.
    Admiral Blair. And that would be better for us. When they 
are moving, they are more vulnerable.
    Mr. Thornberry. Okay. That be would better. Let me switch 
briefly to Iraq. The President said last night, he talked about 
ending the war, withdrawing troops. The press reports say that 
by August 2010, all combat troops will be out of Iraq--or that 
is the decision that the President has made. My question is, is 
there--I understand that 19 months was talked about in the 
campaign. My question is is there any intelligence basis to say 
August 2010, that is the date that we can have all our combat 
troops leave and the Iraqis can handle their security on their 
own?
    Admiral Blair. There is an intelligence basis for the 
decisions that the administration is in the process of making 
and hasn't quite announced yet. And I would be happy to talk 
about those a little later on in closed session, sir.
    Mr. Thornberry. Okay. Just thinking back, my perception is 
that in the course of Iraq situations have changed on the 
ground, and we were slow to recognize it and even slower to 
change our strategy to deal with it. I guess my concern is that 
if we get locked into some sort of campaign promise, somebody 
has got to be willing, if facts warrant, to walk into the oval 
office and say Mr. President, this would be a disaster if we 
hold on this arbitrary timetable. And it seems to me the only--
one of the few people who can do that is you. Are you, and do 
you think the Intelligence Community is willing to take into 
account the facts on the ground and give that unvarnished truth 
if, indeed, facts do change?
    Admiral Blair. Sir, I think the Intelligence Community has 
two roles in this policy process. Number one is where we are 
with a lot of policies with this new administration. When you 
make them, the Intelligence Community needs to be in there 
telling what the situation is on the ground, what are the 
likely consequences of alternative policies. And our--your 
Intelligence Community has been playing very strongly in that 
position now. Once a decision is made and a policy is 
announced, you know what your objectives are, you know what the 
time scale is, then the job of the Intelligence Community is to 
monitor the situation on the ground and say is that policy 
working. Is it achieving the things on the ground that it said 
it was going to? And I can assure you I will have no difficulty 
in being able to bring those judgments forward. And I would say 
the primary reason for that is that this President welcomes, 
welcomes it. He doesn't want to walk into box canyons without 
somebody pointing them out to him.
    Mr. Thornberry. I would just say we all welcome that, and 
we all need the best judgments that our community can provide. 
Thank you. Mr. Chairman, I yield back.
    The Chairman. Thank you, Mr. Thornberry. Mr. Boren.
    Mr. Boren. Thank you, Mr. Chairman. I want to congratulate 
you, Director Blair, on your new position. I know you will do a 
fabulous job. I have a few points and then a couple of 
questions. You talked a little bit about energy in your opening 
statement. After this hearing, I am going to the resources 
committee and going to be visiting with some of our energy 
executives in the United States, one being based in Oklahoma 
that is drilling some offshore wells. It seems to me that some 
of the rhetoric that has come out of the administration could 
be detrimental to our national security in exploring all the 
natural resources that we have in the United States, especially 
natural gas, which is a big component, I think, of protecting 
us and using as a transportation fuel.
    And as you mentioned, the prices have gone down, and that 
is good right now. But at some point, demand is going to pick 
back up, and we are going to be in the same position that we 
were when we had $147 a barrel oil. So that is one point. 
Second point, Guantanamo, I visited Guantanamo with then 
Chairman Duncan Hunter of the Armed Services Committee. We were 
there. Yes, maybe there were some problems. Yes, I understand 
that there was a public relations issue. But my concern is by 
closing that facility and not really having a plan to do 
something with these individuals, we are setting ourselves up 
for failure. And so those are my two points. But I don't need 
an answer on those. The questions I have, I am really focused 
on Africa. As a new member of the committee, that is where I am 
going to be turning my attention and AFRICOM. Two questions. 
One, the Intelligence Community has a shallow bench of experts 
on sub-Saharan Africa. How will the establishment of AFRICOM 
enhance the Intelligence Community's ability to understand and 
analyze developments in the region? That is the number one 
question. And the second question is about Zimbabwe. What do 
you think is happening on the ground there? And what are we 
doing to prevent any disaster if there is a real breakdown 
there? And what kind of humanitarian efforts can we do to stop 
that?
    Admiral Blair. Sir, on the first question, any time that 
there is an executive branch action body like out of the 
Department of Defense or the Department of State it is a good 
thing for us in the intelligence world because it gives us 
somebody who is asking the questions. It really helps us focus 
our intelligence assets. So AFRICOM, I think, will be good 
because they are out there doing things to protect American 
interests. They will be asking the hard questions of the 
Intelligence Community. And that he helps us more than just 
sort of a general appreciation, which you need, but which 
doesn't really take you too far. On Zimbabwe, I would like to 
get back to you in more detail since I don't have a personal 
deep knowledge of that country. And I would like to reply a 
little bit later if I might.
    Mr. Boren. Okay. I look forward to working with you in the 
future and I yield back, Mr. Chairman.
    The Chairman. Thank you, Mr. Boren. Mr. Miller.
    Mr. Miller. Thank you very much, Mr. Chairman. I too will 
be working with my colleague, Mr. Boren, and focusing on the 
continent of Africa as well and the new command that has been 
stood up there. But I would like to go back, if we could, to 
Guantanamo. And can you tell me any operational reason that 
Guantanamo needs to be closed?
    Admiral Blair. I can tell you as an intelligence assessment 
that the damage it has done to the international American 
reputation makes it difficult for us to achieve objectives in 
other areas.
    Mr. Miller. It is a political reason, but not an 
operational reason.
    Admiral Blair. I mean, it is a realistic reason. Countries 
won't deal with us. Our popularity is down. We don't have blue 
chips to trade for things we want in other areas.
    Mr. Miller. 30 days ago, the President did sign the 
executive order to close Guantanamo. What consultation was done 
with the Intelligence Community prior to the signing of that?
    Admiral Blair. Full consultation. Meetings with the 
officials at the CIA, representatives in the drafting 
committees that draft the executive orders. There was good 
consultation.
    Mr. Miller. In looking at your opening statement, I didn't 
see anywhere in the statement, and if I missed it I apologize, 
that you talk about a potential--or the potential for a threat 
by bringing detainees from Guantanamo to the United States. And 
hopefully you are not asserting that there is no threat. Or 
have you given any thought to the consequences of bringing them 
here? Not necessarily the people from the inside breaking out, 
but the possibility of people on the outside wanting to come 
into the communities and disrupt things at the facilities.
    Admiral Blair. You mentioned that yesterday, Congressman 
Miller. And I have been giving some thought to it. The primary 
objective of al-Qa'ida in the United States now is another 
spectacular, large people killing attack. That is what they 
seem to be thinking about. I will have to go back and see where 
the idea that you mentioned of trying to break in, rescue one 
of their colleagues, kill a lot of people is something that is 
worthwhile. But thank you for bringing that to my attention.
    Mr. Miller. Thank you, sir. Moving to Pakistan, the Zardari 
government, does he have the full support of the Pakistani Army 
right now?
    Admiral Blair. President Zardari of Pakistan and the Army? 
I talked with General Kayani about 2 days ago, and he supports 
his President. So that much is sure. And that much is 
important.
    Mr. Miller. What is the Intelligence Community's assessment 
of the stability right now in Pakistan that you can give in an 
unclassified setting?
    Admiral Blair. I would rather give details in a closed 
session, if I might, Congressman Miller, but it is one of the 
countries that we feel is dealing with a larger number of 
problems than most. It is a very important country, as you 
know. So there is a cause for quite a bit of concern when you 
have that combination of importance and pressures, economic 
pressures, governance pressures. We talked about the terrorist 
pressures in a rough part of the world. So it is a country that 
we need to watch closely.
    Mr. Miller. You know, I think one of the biggest 
disappointments that I have had in watching what has happened 
in Afghanistan in particular is our feeble at best attempt to 
eradicate the poppy crop. We have spent hundreds of millions of 
dollars. And now it appears that opium and the level of poppy 
production has reached all time levels. Can you give me an idea 
as to why we cannot get a handle on that issue?
    Admiral Blair. I have watched various campaigns over the 
years against both opium crops and against cocaine problems. 
And it seems that they have to be multi-pronged. There is no 
silver bullet. They have to be prolonged. And trying to find 
that right combination is difficult. And you fail more times 
than you succeed. So I would basically say it is a hard problem 
when the profits are so high, the alternatives are so few, and 
so many people are on the take because of the money involved. 
So I think it is a hard problem that we haven't found the right 
key to yet.
    Mr. Miller. Thank you, sir. Thank you, Mr. Chairman.
    The Chairman. Thank you, Mr. Miller. Mr. Schiff.
    Mr. Schiff. Thank you, Mr. Chairman. Mr. Director, thank 
you for being with us. I want to follow up a bit on our 
conversation yesterday on the detainee issue and also on 
Somalia. I will be sharing with you and your staff, as we 
discussed, some legislation that I intend to introduce later 
this week or next week.
    Admiral Blair. Thank you.
    Mr. Schiff. But I wanted to just amplify a little bit more 
on it. I think that the people detained at Guantanamo should be 
given another status review, not use the same military 
commissions and tribunals that were established under the last 
administration, but by expanding the jurisdiction of the 
military courts martial to do status reviews. I think it is a 
natural venue to do that. I also think those who are determined 
to be unlawful combatants, and are therefore subject to 
prosecution on top of their combatant status, those 
prosecutions could, by and large, go forward in the military 
courts martial. Some may be appropriate to be tried in Federal 
district courts.
    I would think these combatants would be better suited for 
trial in the military courts martial. But there will 
nonetheless be both detainees at Guantanamo who will be 
determined to be unlawful enemy combatants, and therefore can 
be legally detained without charges based on their status for 
the duration of the conflict or until they are no longer a 
threat. And the question becomes where should they be detained? 
And what I would like to throw out that this is one of the 
options that my legislation would allow, among many others, is 
to establish a NATO-run detention facility in Afghanistan to 
internationalize the detention of unlawful enemy combatants.
    It is a coalition effort in Afghanistan. There is no reason 
why the United States should be solely responsible for the 
detaining of unlawful combatants. I think it would address a 
lot of the international issues that you alluded to in answer 
to Mr. Miller's questions. If because of the black eye of 
Guantanamo we can't get cooperation from allies in intelligence 
operations, that is not a theoretical or political impact, that 
is a very real impact on our ability in the war on terror.
    I think the idea of establishing a NATO detention facility 
also has the advantage that we are not just dealing with 
Guantanamo detainees, we are also going to be dealing with 
prospective detainees. And while all the focus right now is on 
what do we do with the hundreds of people at Guantanamo, the 
reality is both in Iraq and Afghanistan and down the road 
probably elsewhere, we are going to have people being detained 
as unlawful combatants who won't be brought to Guantanamo 
anymore. And if they are detained, for example in Afghanistan, 
who should be detaining them?
    Now, it may be that some we will want to detain. It may be 
others we would want to detain in an international setting. So 
I would throw out that as a possibility. There are many of our 
NATO allies who are not able politically or otherwise to 
subject their troops to combat operations. This could be a 
valuable service they could provide. It wouldn't be easy, being 
in charge of detaining very dangerous people----
    Admiral Blair. Right. Right.
    Mr. Schiff [continuing]. But would be a very valuable 
service that they could provide. So I throw that out there. I 
also wanted to touch on your thoughts both on that as well as 
this. I want to follow up on Somalia, which as I mentioned to 
your colleague at CIA yesterday, is something I have been 
concerned about for a number of years as if I had to choose the 
next best alternative or the next, you know, greatest candidate 
for the next Afghanistan, it would be Somalia. I think our 
intelligence efforts to ascertain who in Somalia we can work 
with and who truly is affiliated with al-Qa'ida are going to be 
very important, not lumping all the Islamic parties there 
together. I would love to get your thoughts on both those 
issues.
    Admiral Blair. Yes, sir. As you know, one of the three 
executive orders is directed to exactly the question that you 
raised, what do we do going forward? That is with new detainees 
that we may capture or with the ones who are after some fashion 
it is determined that they should not be released. The Justice 
Department heads that. We participate in it. And we will ensure 
that the imaginative ideas that you described are in the mix. 
And I have heard some other excellent ideas from other Members 
of Congress. And I really appreciate the thinking that has gone 
on here, as well as in the task forces. And we will make sure 
that is in.
    On Somalia, I mean I think you are making the exact point 
that Congressman Thornberry made, which I very much agree with, 
that you can't just look at one place here when you have all of 
these other potential spots. And frankly, Somalia has been a no 
man's land here for what, 10, 15 years. The Ethiopians came in, 
it was a tough row for them, and they are just completing their 
withdrawal. It is a patchwork of a country now with some law 
and order in the north, none in the south.
    So I think that as part of our--yes, it is against al-
Qa'ida, but in general, bad things happen in these ungoverned 
areas of the world. And we have to look at the Somalias, the 
Yemens, as well as the FATA areas and have a comprehensive 
approach to improving conditions in them so that they aren't 
breeding grounds for not only al-Qa'ida, but for human misery 
and potential starvation, the sorts of things that drew us into 
Somalia 20-years ago. So it is something that is on the radar 
screen that needs to be part of the strategy, and I thank you 
for bringing attention to it.
    Mr. Schiff. Thank you, Mr. Chairman.
    The Chairman. Thank you, Mr. Schiff. Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman. Admiral, welcome 
aboard.
    Admiral Blair. Sir.
    Mr. Conaway. I just got here as well. So I am looking 
forward to the service. You mentioned a phrase a while ago, al-
Qa'ida in America. Did you mean like al-Qa'ida in Iraq? Is 
there actually a formalized organization of al-Qa'ida in 
America here or were you just saying it?
    Admiral Blair. I must have either said it wrong or----
    Mr. Conaway. You said the intent of al-Qa'ida in America is 
to----
    Admiral Blair. I am sorry. I said of al-Qa'ida, in America 
as a target.
    Mr. Conaway. Thank you.
    Admiral Blair. But there are, in fact, al-Qa'ida 
sympathizers in this country who would be involved in such an 
attack. So, no, we haven't formed a phrase like that, but it is 
a real problem.
    Mr. Conaway. Okay. All right. America bashing is a very 
popular sport. Always will be. I mean, envy is something that 
gets involved. You know, currently Guantanamo Bay is kind of a 
lightning rod for any excuse to not do something that somebody 
really didn't want to do anyway. Okay, we do agree with Gitmo, 
which I disagree with, but let's do away with that, there will 
be other things we do in our own best interests that our allies 
and many of our enemies will be able to point to and say, well, 
but for that we would do what you want us to do. We would take 
over the prison in Afghanistan but for whatever. Should we make 
it a practice of constantly deferring to ``world opinion'' to 
do things that aren't in our best interests?
    Admiral Blair. I am going to step out of my intelligence 
role for just a second because I have been sort of in the 
operational role, and say there is going to be a certain amount 
of America bashing going on because we are the most powerful 
country. I think, though, that you shouldn't make yourself an 
easy target for things that you can fix, that when you do act 
unilaterally it ought to be for a really good reason. And you 
will find in many cases that other countries will rally around 
strong leadership properly directed towards common goals. So, 
no, we should not be run by international opinion polls. But we 
should be protecting our country's interests.
    Mr. Conaway. Okay. I understand there is a tension there.
    Admiral Blair. Yes, sir.
    Mr. Conaway. But by the same token, we can't use that as 
our own excuse to do something that is not in our own best 
interests simply because somebody else somewhere doesn't like 
us. The President mentioned last night he is intending to 
dismantle the Cold War weapons systems to pay for everything 
else that is going to get done under what he is doing. Anything 
in the IC community, or the Intelligence Community that is Cold 
War weapons system-like that he is intending to dismantle or to 
take a dividend out of?
    Admiral Blair. Unfortunately, many of those Cold War 
systems are aging out, like satellites and things like that, 
and need to be replaced. And we are in the midst of some tough 
decisions on electro-optical satellites, in particular, that we 
have to make. I can assure you that as we make those decisions 
we are looking to the future, and not to the past in terms of--
and for intelligence there is a fundamental difference in the 
Cold War. The enemy was hard to find and easy to kill.
    In the new situation it is hard to find. I mean it was easy 
to find and hard to kill. You know what--al-Qa'ida in America, 
those guys. But we knew where the enemy was, we just had to 
bring a lot of firepower to bear. Now the burden on 
intelligence is very much higher because of the smaller, 
individual nature of the targets, their ability to hide, move 
across borders. So it takes a different kind of intelligence 
system to do that.
    Mr. Conaway. In that regard, and again you have only been 
there a very short period of time, are there gaps that you feel 
comfortable talking about in this forum, and where additional 
resources are in fact needed to protect this country so that 
the intent of al-Qa'ida in America--al Qaeda's intent in 
America is not fulfilled?
    Admiral Blair. Yes, sir, there are gaps. I would rather 
talk about them in closed session if I might.
    Mr. Conaway. All right. Admiral Blair, I look forward to 
working with you. Thank you. I yield back.
    The Chairman. Thank you, Mr. Conaway. Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman. Director, thank you 
for being here and for your service. I want to turn my 
attention to the issue of cybersecurity. We had a brief 
conversation about it yesterday, but for the committee and for 
the public, I want to get your thoughts again on this issue. I 
have paid a lot of attention to cybersecurity, and I appreciate 
the fact that you raised it in your opening statement here this 
morning. As I mentioned to you yesterday, I have spent the last 
2 years chairing both a Homeland Security subcommittee on 
emerging threats and cybersecurity, and then as one of the four 
co-chairs on the CSIS Report on Cybersecurity for the 44th 
Presidency. And I am pleased with its findings, and I hope that 
the administration is going to adopt many of the 
recommendations that are contained in the report. I know that 
right now the administration is doing a 60-day review of its 
cybersecurity strategy, and I applaud the appointment of 
Melissa Hathaway as the director for cyberspace in the NSC. It 
is my hope that this position will actually be elevated and 
will be a special assistant to the President. But can you give 
us at least a preliminary overview of your--how you believe the 
cybersecurity strategy will be structured? And in particular, 
where will it be housed?
    The previous administration put a lot of the focus and 
responsibility for securing cyberspace in the Department of 
Homeland Security. While I have great respect for the men and 
women that work in the Department, it is clearly still 
struggling to stand itself up, and in my opinion, was not the 
proper place to house the major responsibility for 
cybersecurity. I personally think it needs to be coordinated 
out of the White House, with both policy and budgetary 
authority across a range of responsibilities in government.
    But can you share with us, at least on a preliminary basis, 
your vision for how our cybersecurity strategy will be 
conducted, what it will look like? And also talk to us about 
what you see as where the greatest threats would come from? I 
have been stunned by the amount of penetration across Federal 
networks in cyberspace and our U.S. assets, as well as the 
amount of data that has been exfiltrated from those networks. 
It is absolutely stunning, and an issue that had been ignored 
for many years at our own peril. We are finally paying proper 
attention to it, but I would like you to share your thoughts on 
some of those issues. Thank you.
    Admiral Blair. Thank you very much. I think there is one 
key aspect of this future cyber strategy which this committee 
and your counterpart in the other body can really help us with, 
and that is the role of the National Security Agency outside of 
the intelligence, its intelligence functions. I agree with you 
the Department of Homeland Security is finding its footing in 
this area. The National Security Agency has the greatest 
repository of cyber talent. With due respect to Congressman 
Hastings' 23-year-old new hire, there are some wizards out 
there at Fort Meade who can do stuff. I think that capability 
should be harnessed and built on as we are trying to protect 
more than just our intelligence networks or our military 
networks, as we expand to our Federal networks and to our 
critical infrastructure networks. And the reason is that 
because of the offensive mission that they have, they are the 
ones who know best about what is coming back at us.
    And it is defenses against those sort of things that we 
need to be able to build into wider and wider circles. I think 
there is a great deal of distrust of the National Security 
Agency and the Intelligence Community in general playing a role 
outside of a very narrowly circumscribed role because of some 
of the history of the FISA issues in years past, general 
distrust of having--I mean, the NSA is both intelligence and 
military. You know, two strikes out in terms of the way some 
Americans think about a body that ought to be protecting their 
privacy and civil liberties. I think you all know that the fact 
of the matter is that the NSA, in fact, the entire Intelligence 
Committee operates under very strict rules. Sometimes people 
don't follow them, but we find them and we hold them to 
account.
    So I would like the help of people like you, who have 
studied this closely and served on commissions, the leadership 
of the committee in finding a way that the American people will 
have confidence in the supervision, in the oversight of the 
role of NSA so that it can help protect these wider bodies. To 
me that is one of the key things that we have to work on here 
in the next few months.
    Mr. Langevin. Right. And I know my time has expired, but I 
just want to say that I agree with your assessment about the 
NSA. I think a great disservice was done to the hardworking men 
and women at the NSA and in the Intelligence Community because 
of the FISA issue. And it was more the issues that took place 
at the very top levels of our government, and not the 
hardworking men and women who worked there. They do have great 
capabilities. There is great professionalism, and they need to 
play a very strong role in securing us in cyberspace. I look 
forward to our continued discussion and work on this issue.
    Admiral Blair. Sure.
    Mr. Langevin. Thank you.
    The Chairman. Thank you, Mr. Langevin. Before I go to Mr. 
Kline, I just want to remind members we will probably be voting 
between 11:00 and 11:30. We should be able to complete the open 
hearing before then. And then we will reconvene for the closed 
session at the Capitol. And lunch will be available for 
members. Mr. Kline.
    Mr. Kline. Thank you, Mr. Chairman. Good morning, Director. 
Welcome. I want to pick up, if I can, with the discussion we 
had yesterday, to the extent that we are comfortable talking 
about it in this open forum, and that is the issue of 
interrogation techniques. Much public relations discussion 
about those for the last few years. Arguably some uncertainty 
about what those techniques should be. I think most Americans 
thought that the President of the United States, President 
Obama had cleared that up and announced that everybody was 
going to use the Army Field Manual. Everybody in the 
Intelligence Community, everybody in the military was going to 
use the Army Field Manual for determining what those 
interrogation techniques could be. Could you talk about whether 
or not that perception is correct and what the status is of 
dealing with the question of interrogation techniques?
    Admiral Blair. Yes, sir. I would like to clear that up. The 
executive order specifies that the Army Field Manual will be 
the basis for interrogation techniques used across the 
government. That is by the Intelligence Community as well as by 
military interrogators. But it also specifies that that manual 
will be reviewed so that it meets the unique requirements both 
of intelligence and----
    Mr. Kline. Okay. Thank you. I just kind of wanted to get 
that on the record, because I believe what your answer is is 
that we do not know right now what the interrogation techniques 
are, and that the Intelligence Community is not bound by the 
strict interpretation of the Army Field Manual, which was the 
widely held public perception. And so there is an evaluation 
process that is ongoing, is that correct, to modify or expand?
    Admiral Blair. To review.
    Mr. Kline. To review.
    Admiral Blair. But right now pending that review, the Army 
Field Manual techniques do apply to the Intelligence Community. 
So you are correct in that right now today, tomorrow it is the 
portions of the Army Field Manual, which as you know it is a 
human intelligence manual----
    Mr. Kline. It is.
    Admiral Blair [continuing]. Of which interrogation is a 
part, not the whole, but those procedures govern Intelligence 
Community interrogations. That will be adjusted pending the 
results of the review.
    Mr. Kline. Pending adjustments. Okay. Thank you very much. 
Let me move to domestic intelligence, if I could, just picking 
up on Mr. Hoekstra's comments and others that Congress is 
viewed, and I think the 9/11 Commission report called on your 
office to be a coordinating office to break up the stovepipes 
that so hampered us on 9/11, where we had rules that forbade 
the FBI from talking to the CIA and so forth. And now I am from 
Minnesota, and we are very much aware that a refugee from 
Somalia left Minnesota and went overseas and blew himself and 
others up. So there is a question about the radicalization of 
some in this country.
    Minnesota happens to have a very large Somali population. 
Certainly not all those Somalis are radical by any stretch of 
the imagination, but clearly there is concern. We see about it 
constantly in the papers back in Minnesota. That story is 
prominently displayed. There are some fears in Minnesota. And I 
think that we should all be alert to that. But that raises a 
question of what do we do about that? That is an issue here in 
the United States. But we have now a number of organizations, 
Department of Homeland Security, FBI, CIA and an others. How is 
your organization now equipped, how do you feel like it is 
doing--I know you just got there--but in that ability to cross 
those lines so that we are not caught with our feet sort of 
nailed to the floor?
    Admiral Blair. I am--that is a high priority problem. And I 
have looked into it in some depth in my first few weeks on the 
job because of the importance. And I would like to provide 
details in closed session. But I think you would be pleased as 
to the flow of information between the FBI intelligence agents, 
who have the authority to operate in this country, and the rest 
of the Intelligence Community, which gathers intelligence and 
takes action overseas. The vehicle for that exchange, at the 
cap of is the National Counterterrorism Center. And I urge you 
to come out for a visit when you can, because you will find 
that the exact domestic-international connection that you are 
questioning, you will see how it is done physically with a row 
of FBI analysts interspersed with rows of analysts from other 
communities. And individuals are tracked very closely.
    So the structure is very much there in place. And in 
addition, there are other ways to communicate down to State and 
local levels. You will hear different stories from people who 
operate at State and local levels. The old joke we are from 
Washington, we are here to help you is alive and well in many. 
But I think if you poke at it you see a steady improving trend. 
I would say it is one of those things that I feel sort of good 
about, but you just don't feel really good about it because of 
the possibility that you are missing something and the memory 
that we all have of what happened in 2001.
    Mr. Kline. Right.
    Admiral Blair. But we can talk about that more, but I think 
it is basically a good news story, sir.
    Mr. Kline. Thank you. And I am looking forward to that 
visit. Again welcome aboard, and I yield back.
    The Chairman. Thank you, Mr. Kline. Ms. Schakowsky.
    Ms. Schakowsky. Mr. Chairman and ranking member, first let 
me thank you so much for having this open hearing. I think it 
is incredibly useful for the American people to hear what I 
think, Director, has been a very constructive dialogue, that we 
have been able to raise a lot of concerns. You have been able 
to respond to a lot of them. And even when you can't, I think 
the fact that we have outlined and somewhat demystified what 
the Intelligence Community is doing that the American people 
get a chance to see you and understand much better your 
functions and who you are as a person. And I want to encourage 
you, Mr. Chairman, to consider this kind of format going 
forward more extensively than we have used it in the past.
    And I wanted to suggest, Director, that we also look at the 
issue of classification more carefully. There have been times 
when we have been presented with documents and information 
where members have kind of shaken their heads and wondered why 
is this classified information. I think the more that these 
issues are aired where we can, the better off we are as a 
Nation. And I know that the President has made transparency a 
hallmark of his administration. And I think that does require 
looking at classification. I wanted to ask a number of 
questions. Maybe you can answer them here and maybe not. One is 
about the issue of the prison at Bagram in Afghanistan. And I 
know that there has been a ruling about that, that those who 
are incarcerated cannot challenge their incarceration.
    I am concerned that there are, in fact, some innocent 
people in Bagram. And I just wonder what the future is there 
for those who are detained by the United States. And secondly, 
you outlined as the primary near term security concern of the 
United States the global economic crisis and its geopolitical 
implications. I know that the President has emphasized the need 
for the United States to act to prevent humanitarian crises, 
which I think we may see growing now around the world, the idea 
of economic refugees and all kinds of instability that may be 
created, humanitarian crises that go beyond that like what we 
see in Sudan. What I am wondering is how can intelligence 
capabilities provide early warning of humanitarian crises so 
that U.S. policymakers, the Intelligence Community can devise 
strategies to prevent or respond to such crises?
    Admiral Blair. Ma'am, on Bagram I think the exact same sort 
of issues are there as--not the exact same, but many of the 
same issues are there as are being sorted out in relation to 
Guantanamo. And I think those principles will have to be 
applied to those who are detained there. So that will have to 
follow in due course, the issues of process, the issues of 
long-term detention for those who need to be held. On the 
humanitarian situations, we have an actual unit within the 
Intelligence Community whose job it is to monitor the world for 
disasters that rise to that level. A great deal of that 
information is available from other organizations that are not 
involving secret intelligence, but there are some things that 
we can do with our collection mechanisms. That is put together, 
and we provide routine warnings of that so that we are not 
caught unawares.
    Ms. Schakowsky. Thank you.
    The Chairman. Thank you, Ms. Schakowsky. Mr. Ruppersberger.
    Mr. Ruppersberger. Yes. I would like to get back into the 
area of cybersecurity. Mr. Langevin brought up the issue. It is 
something extremely important to our national security, to our 
business community, to our privacy generally. There was a 
comment that people do not really trust some of the things that 
happened at the NSA, and it is unfortunate. NSA is in my 
district. I chair the subcommittee that oversees them. And they 
are some of the finest, hardest working people. And if they 
could talk and let the public know what internal mechanisms 
they have to protect Americans and to follow the Constitution, 
we would be a lot better off. But they couldn't even defend 
themselves when all the FISA issues were going on.
    I have been there for a period of time, I go there a lot, 
and I have never seen anything that violates the Constitution. 
With that said, one of the biggest issues we do have to deal 
with is the public, and educate the public what cyber is about. 
And I think in order to do that we have to tell some of the 
stories that have happened with cyber attacks, how Russia 
literally closed down Estonia's banking system because there 
was a battle about a statue that Estonia was taking down. When 
Russia attacked Georgia, they cyber attacked and got into their 
communication systems and banking systems again.
    There are a lot of classified issues, but I can say there 
have been many newspaper articles about attacks in our 
Pentagon, about NASA, about how possibly China and Russia, if 
they have been able to attack NASA, that they have been able to 
save billions of dollars in research that we have done. Our 
business community and business secrets. And if you have a 
server, say in a bank in North Dakota, rural area, and that 
bank does one transaction with Bank of America, the bad guys 
could get in through that server and literally shut down a lot 
of Bank of America.
    These are the stories that the public needs to know, 
because the public doesn't have a clue, in my opinion, how 
serious this cyber attack is. The good news is President Obama 
has been briefed. He gets it, he understands it. You have 
people, I know Mr. Schiff and I have been to NSA being briefed 
on this issue, Mr. Langevin has a lot of expertise in this 
area. So we plan to really, from the technical point of view, 
look at some of the issues that are there. But in your job, and 
where I really want to ask the question, do you feel the 
mechanism is in place, and I believe it is a good move to bring 
Melissa Hathaway who probably has as much knowledge on cyber, 
and also General Alexander, who is as good from a technical 
point of view as anybody in this country, with those two people 
working with us and the present administration, I think we can 
come a long way.
    But where do you feel in your role as DNI that we need to 
go to deal with the cyber issue? And including with that is 
billions of dollars of money that are going to have to be put 
out there and the partnerships between the Verizons, the 
Microsofts, the AT&Ts. And I would like to hear your opinion, 
what you can do in an unclassified where we need to go. Is the 
threat real? And what are your recommendations?
    Admiral Blair. Sir, I agree with you that we need to have 
open descriptions of some of the damage that have been caused 
by recent attacks. And I am sure, having seen the inside story, 
you know that that is a fairly complicated process to sort all 
of that out, particularly attribution. And I think it is 
important to write these stories more on the fact of what 
happened than who the individual perpetrator was for that one, 
because there can be many, as you know.
    Mr. Ruppersberger. It could be al-Qa'ida, it could be other 
countries. One thing I want to point out that I think is 
important, since this is a public hearing, we don't own the 
Internet. So it is not as though we are controlling the 
Internet. We just have to protect ourselves from these 
invasions.
    Admiral Blair. I think you have that right, yes, sir. We 
play a big role in the Internet. As you know, it is an 
international body that governs it. I think on the second point 
you make is also absolutely vital, is that this has to be a 
public-private----
    Mr. Ruppersberger. Partnership.
    Admiral Blair [continuing]. Public-private partnership to 
move forward, because the owners of most of the servers and 
fiber-optic cables and all are private companies. On that 
front, there is also some good news, because through some of 
the initiatives that General Alexander, whom you know, started, 
we have good relations with the big IT software developers and 
vendors in a body that is actually organized that we in the 
Intelligence Community and others play a role in to tackle 
these problems together.
    And I think both common solutions, and also, frankly, I 
would like to bring in some business executives into government 
to take jobs on the inside to help us with their knowledge on 
the outside. So I think all of those are essential to solving 
this problem.
    Mr. Ruppersberger. Okay. Well, there is a lot of work to 
do, and I look forward to working with you.
    Admiral Blair. Yes, sir.
    The Chairman. Thank you, Mr. Ruppersberger. Votes have just 
been called, and I would remind members that the new policy is 
they will go 2 minutes beyond the 15 minutes. At least that is 
what we have been told. I have got Mr. Holt and then Ms. Eshoo.
    Mr. Holt. Thank you, Mr. Chairman. And Mr. Director, again, 
congratulations. You have a lot of the skill and background 
necessary to do a good job in this position. And we wish you 
well, want to work with you. Since this is an overview today, I 
would like to ask an overview question about the relationship 
between the Intelligence Community and Congress. The 9/11 
Commission recommended strongly that Congress show more 
oversight of intelligence activities. So let me ask several 
questions. I will ask them all at once, and then you can--do 
you think that vigorous Congressional oversight benefits the 
efficient functioning of the Intelligence Community or could 
you operate better without Congressional questioning about the 
workings and the activities of the IC? I think of that as a 
softball question, but it is important to answer I think.
    And do you and the DNI staff think that in recent years 
Congress, and by that, I really mean the duly sworn members 
with responsibility for intelligence, that Congress has 
received all the information and cooperation it needs to 
conduct full and appropriate oversight? More specifically, was 
it appropriate not to brief members about President Bush's 
domestic electronic surveillance? Was it appropriate not to 
brief all members about certain covert activities in the Middle 
East and Latin America? Was it appropriate not to seek advice 
in these areas? Would you do anything different?
    Admiral Blair. Sir, for those questions I am reminded of 
that song, some kind of help is the kind of help that help is 
all about, and some kind of help is the kind of help that we 
all can do without. And I think vigorous, effective oversight 
of the right kind is nothing but good for our community. And I 
think we are working it out. We are a new administration. There 
is some new members of the committee. There are some veterans 
here. And I think as a background thing I should say my pledge 
is to make it as a good a partnership as possible. And I think 
if you talk to those who serve on your counterpart committees 
who have dealt with the Armed Forces, you will find that my 
reputation is one who probably says more rather than less to 
Members of Congress, because I understand who pays the bills 
and who has the oversight responsibilities. So that is kind of 
my going in----
    Mr. Holt. So more specifically, was it appropriate in those 
circumstances that I mentioned? I think you know what I am 
talking about.
    Admiral Blair. Right. And on that question of fully and 
currently informing the committees, I follow the law, 
Congressman Holt, that says you will be--this committee will be 
fully and currently informed of intelligence activities.
    Mr. Holt. So you would do it differently. In other words, 
it was inappropriate you are saying not to brief Congress about 
that surveillance program? It was not appropriate not to brief 
all members about these covert activities that I think you and 
I know what we are talking about?
    Admiral Blair. I would really rather talk about going 
forward rather than looking back. Because that is what I can 
affect, sir. And I will be leaning forward, I will be leaning 
on the side of consulting more rather than less. But there is a 
category of sensitive covert actions, which, as you know, is 
covered by a separate article of the statute, which I am also 
aware of and which I feel has to be observed.
    Mr. Holt. Yeah, which I mean--what I am talking about, I 
just want to set some benchmarks here.
    Admiral Blair. Right.
    Mr. Holt. Because what I am talking about, you know, we 
were not briefed at all. No one. Not a committee member, not a 
committee chair, no one. Was that appropriate?
    Admiral Blair. There is no case that I know of in which no 
one should be briefed about an intelligence activity----
    Mr. Holt. That helps.
    Admiral Blair [continuing]. In this Congress.
    Mr. Holt. How am I doing on time, Mr. Chairman?
    The Chairman. You have less than a minute.
    Mr. Holt. Less than a minute. Well, let me ask for the 
record then you have listed a number of specifics. If you were 
to look at all of the risks, threats, events that might affect 
Americans and multiplied the likelihood of these events 
occurring times the number of Americans affected, what would 
you rank as number one, two and three? And is the allocation of 
resources within the Intelligence Community, how does that 
match for those three? So whether we are talking about climate 
change or theft of nuclear weapons from Russia or Pakistan and 
the use of those weapons, or a series of al-Qa'ida terrorist 
attacks on the U.S.----
    The Chairman. If you can hit just a couple of those, 
because I want to leave time for Ms. Eshoo so we finish up the 
open session.
    Admiral Blair. Yes, sir. I will just say quickly that the 
greatest, the greatest threats I think do lie in that 
convergence between nonstate actors and weapons of mass 
destruction. And, you know, what would be the factors on 
likelihood and casualties I think we probably ought to talk 
about in closed session. But it is people who are not 
deterrable getting ahold of weapons that can cause a lot of 
deaths.
    Mr. Holt. So if you could look at the top three later and 
tell us how you think the match of resources, the allocation of 
resources matches.
    Admiral Blair. Yes, sir.
    The Chairman. Ms. Eshoo.
    Ms. Eshoo. Thank you, Mr. Chairman. Good morning, Mr. 
Director. The last question really segues very well into mine. 
I think the ultimate nightmare and Intelligence Community 
challenge is nuclear weapons and materials falling into the 
hands of those that want to destroy us, which leads me to 
Pakistan. I think that Pakistan poses an enormous challenge to 
us, along with Afghanistan, and I think they are tied in many 
ways. So I have two questions about it, and I think we can 
follow up on this in other forums, probably classified as well. 
But A.Q. Khan was released by the Pakistani Government from 
house arrest earlier this month. I was shocked and appalled 
when that was announced.
    So my question to you is does he still pose a proliferation 
threat in the eyes of the Intelligence Community? Do we know 
about any restrictions that may still be in place relative to 
this man that a colleague of mine dubbed the Johnny Appleseed 
of nuclear materials and information? And do we know what level 
of access he still has? So that I would like to ask you. And my 
second question, which you can answer maybe for the record 
later on is--and you touched on it earlier, I believe--is on 
climate change.
    There are many of us that have worked very hard on this 
issue. And to the credit of your predecessor, he agreed for the 
Intelligence Community to produce an NIE. I would like to know 
what your plans are for the ongoing effort within the 
Intelligence Community, and what the resources are that you are 
going to commit to this. Because there isn't any question in my 
mind and many experts' minds that the destabilization that is 
brought about as a result of climate change has a nexus to the 
Intelligence Community and vice versa.
    Admiral Blair. On those two questions, ma'am, on A.Q. Khan, 
I would rather answer in closed session in more detail, but it 
deserves an answer in open forum, which is that there are 
restrictions on him imposed by the government. And that they 
primarily involve ensuring that he is not connected to the 
network that he used before for the proliferation activities 
that you referred to. And I can tell you in detail. But he is 
not the head of a laboratory, which is in the business that he 
was in before. On climate change, I think that the way the 
Intelligence Community is approaching it now is correct. That 
is we are not funding scientific research on the important 
questions involved in it. We are looking at, with the range of 
predictions that are being made by science, what would be the 
national security effects of this issue?
    Ms. Eshoo. There is a whole pool of expertise that has 
existed within the Intelligence Community. And so I think maybe 
we need to follow up on that----
    Admiral Blair. Right.
    Ms. Eshoo [continuing]. On how you are going to capture 
that and keep it moving. I don't think it just rests under a 
statement of recognition that this poses a threat. That is not 
good enough. And we have tremendous resources. So we can follow 
up on that.
    Admiral Blair. All right.
    Ms. Eshoo. Thank you, Mr. Chairman.
    The Chairman. Thank you, Ms. Eshoo. And there is less than 
4 minutes left, but 400 members yet to show up to vote. So we 
will at this point conclude and adjourn the open hearing.
    Mr. Holt. Mr. Chairman? Since there seems to be a moment, 
may I follow up on----
    The Chairman. Very briefly.
    Mr. Holt. Very briefly. There is precedent for making the 
Intelligence Community resources available for climate change 
studies, the so-called MEDEA project.
    Admiral Blair. Right.
    Mr. Holt. To what extent is that approach being revived? To 
what extent should it be revived, making available the various 
resources of the Intelligence Community?
    Admiral Blair. That is a good question. Let me look into 
that and get back to you and Congressman Eshoo, please, since I 
don't have that on the tip of my fingers.
    The Chairman. Thank you, Mr. Holt. And thank you, Director 
Blair. And with that, the open hearing is adjourned, and we 
will reconvene after votes for the closed session at the 
Capitol.
    [Whereupon, at 11:04 a.m., the committee was adjourned.]

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
